               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




    Follow-Up on City Delivery Standard
           Operating Procedures

                       Audit Report




                                         September 26, 2011

Report Number DR-AR-11-007
                                                                    September 26, 2011

                                                Follow-Up on City Delivery Standard
                                                             Operating Procedures

                                                        Report Number DR-AR-11-007



IMPACT ON:
City Delivery Operations.
                                             over $88,000 in assets at risk in three
WHY THE OIG DID THE AUDIT:                   delivery units. Management immediately
Our audit objectives were to follow-up       corrected these security issues.
on city delivery issues found in previous
reviews and provide a progress report        WHAT THE OIG RECOMMENDED:
during fiscal year (FY) 2011. We             We recommended the vice president,
evaluated 1) adherence to City Delivery      Delivery and Post Office Operations,
Morning Standard Operating                   re-evaluate the certification criteria to
Procedures (AMSOP), 2) delivery units’       ensure units perform efficiently;
certification, 3) Integrated Operating       re-establish the schedule to certify units;
Plans (IOPs) status, and 4) procedures       complete planned unit certifications; and
for workhour to workload management.         establish a process to de-certify units
The U.S. Postal Service implemented          that do not maintain performance.
SOPs in 2005 to improve the efficiency
of city delivery operations.                 WHAT MANAGEMENT SAID:
                                             Management agreed with the finding,
WHAT THE OIG FOUND:                          monetary impact, and, in principle, with
The AMSOP process, designed to               the recommendations. They agreed to
ensure that units operate efficiently, did   re-evaluate the AMSOP process,
not fully achieve intended results.          schedule certification based on the
Specifically, 1,256 inefficient delivery     available staff, and monitor performance
units of the 1,376 reviewed, either did      to certify units every 2 years by
not achieve certification, or achieved       December 31, 2012.
certification, but did not maintain
performance levels afterwards. These         AUDITORS’ COMMENTS:
conditions occurred due to weaknesses        The U.S. Postal Service Office of
in the certification criteria and not        Inspector General considers
adhering to procedures. As a result, the     management’s comments responsive to
Postal Service incurred unnecessary          the recommendations and corrective
workhours at a cost of approximately         actions should resolve the issues.
$40.2 million for FY 2009 and
$47.9 million for FY 2010. Additionally,     Link to review the entire report
IOPs did not always meet delivery units’
needs and procedures to match
workhours to workload were not
consistently followed. We also identified
September 26, 2011


MEMORANDUM FOR:             DEAN J. GRANHOLM
                            VICE PRESIDENT, DELIVERY AND POST OFFICE
                            OPERATIONS

                                E-Signed by Robert Batta
                              VERIFY authenticity with e-Sign




FROM:                       Robert J. Batta
                            Deputy Assistant Inspector General
                             for Mission Operations

SUBJECT:                    Audit Report – Follow-Up on City Delivery Standard
                            Operating Procedures (Report Number DR-AR-11-007)

This report presents the results of our audit on the follow-up on city delivery Standard
Operating Procedures (Project Number 11XG023DR000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Rita F. Oliver, director,
Delivery, or me at 703-248-2100.

Attachments

cc: Elizabeth A. Schaefer
    Philip F. Knoll
    Dwight D. Young
    Drew T. Aliperto
    Sylvester Black
    Jo Ann Feindt
    David C. Fields
    Steven J. Forte
    Jordan M. Small
    Linda J. Welch
    Corporate Audit and Response Management
                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

AMSOP Certification Process ......................................................................................... 2

IOPs and Workhours to Workload ................................................................................... 4

Other Matters – Assets at Risk........................................................................................ 4

Recommendations .......................................................................................................... 5

Management’s Comments .............................................................................................. 6

Evaluation of Management’s Comments ......................................................................... 6

Appendix A: Additional Information ................................................................................. 7

   Background ................................................................................................................. 7

   Objectives, Scope, and Methodology .......................................................................... 8

   Prior Audit Coverage ................................................................................................. 10

Appendix B: Monetary Impacts ..................................................................................... 11

Appendix C: Locations Visited by OIG .......................................................................... 14

Appendix D: Management’s Comments ........................................................................ 15
Follow-Up on City Delivery                                                                            DR-AR-11-007
 Standard Operating Procedures



Introduction

This report presents the audit results of our follow-up on city delivery Standard
Operating Procedures (SOPs) (Project Number 11XG023DR000). Our objectives were
to follow-up on previous city delivery reports addressing SOPs and provide a progress
report on conditions in fiscal year (FY) 2011. We also evaluated the status of Integrated
Operating Plans (IOPs), and the procedures over workhour to workload management.

The morning (AM) SOP certification process, established in 2005, was designed to
ensure that units operated efficiently. The process requires units to develop IOPs,
match workhours to workload, maintain certain performance standards (such as a
delivery point sequencing (DPS) percentage of 85 or greater), and a percent to
standard1 of 100 percent or less for 4 consecutive weeks to be considered for
certification.

The U.S. Postal Service is delivering fewer pieces of mail to a growing number of
addresses as new households and businesses are added to the delivery network each
year. The Postal Service must achieve unprecedented levels of efficiency to
accommodate this new growth, while facing financial loss from declining mail volume
and rising costs. To improve efficiency in delivery operations, the vice president,
Delivery and Retail, implemented AMSOP to certify specific units 2 as operating
efficiently. In response to a request from the Postal Service, the Office of Inspector
General (OIG) conducted a nationwide review of the AMSOP implementation, which
was completed in FY 2007. This audit is a progress report following up on the program
status as of FY 2011.

Conclusion

The audit identified 1,256 inefficient delivery units3 that either did not achieve
certification, or achieved certification, but did not maintain performance levels
afterwards. These conditions occurred because of weaknesses in the 1) certification
criteria, 2) monitoring to ensure adherence to procedures, and 3) planning and resource
allocation. These inefficiencies resulted in expending unnecessary workhours at a cost
of approximately $40.2 million for FY 2009 and $47.9 million for FY 2010. Additionally,
IOPs were not always followed or kept current to reflect the needs of delivery units, and
delivery units did not consistently follow procedures to match workhours to workload.




1
  A measure of carrier office workhour performance in relation to mail volume and delivery points. A figure of 100
percent indicates that office performance is at the stated performance goal. A figure greater than 100 percent
indicates performance is less than the desired standard.
2
  Units that were Executive and Administrative Schedule (EAS) Level 22 and above including all subordinate facilities
and all Flat Sequencing System (FSS) sites.
3
  This represents 601 units for FY 2009 and 655 units for FY 2010.
                                                            1
             Follow-Up on City Delivery                                                                               DR-AR-11-007
              Standard Operating Procedures


             In addition, the audit identified over $88,000 in assets at risk at three delivery units due
             to inadequate physical access controls and insufficient asset safeguards. Management
             immediately initiated corrective action on these security matters.

             AMSOP Certification Process

             The Postal Service’s AMSOP certification process, established in 2005, was designed
             to ensure that units operate efficiently, but it has not fully achieved intended results.4
             Specifically:

                 Our review of 1,376 units in 47 districts5 that were certified or required certification
                  identified 601 units in FY 2009 and 655 units in FY 2010 that did not perform office
                  duties efficiently. Additionally, some of these units did not maintain office efficiency
                  after being certified. For example, Table 1 highlights eight delivery units where office
                  performance after certification ranged from 4.87 percent to 74.77 percent above the
                  FY 2009 national average of 103.67 percent.

                             Table 1. FY 2009 – Examples of AMSOP Certified Units With
                                    Percent to Standard Above National Average
                                                                                                         Difference
                                                                                                         above the
                                                                                                          National
                                                                                      FY 2009             Average
                                                                                     Percent to          Percent to            Excess
    Area                District                            Unit                     Standard            Standard             Workhours
                                            Princeton Junction Post
 Eastern         South Jersey               Office                                       178.44%           74.77%                  1,744
 Western         Arizona                    Phoenix Arcadia Station                      132.17%           28.50%                  5,676
 Southeast /
 Southwest       Suncoast                   Winter Park-Aloma Annex                      124.54%           20.87%                  4,357
 Western         Arizona                    Phoenix-Sunnyslope Station                   111.45%            7.78%                  1,346
 Northeast       Greater Boston             Boston Roxbury Station                       110.68%            7.01%                  3,284
 Northeast       Greater Boston             Fitchburg Post Office                        109.93%            6.26%                  1,031
 Western         Colorado/Wyoming           Denver-Capitol Hill Station                  108.58%            4.91%                  2,483
                 Northern New
 Northeast       Jersey                     Union Post Office                            108.54%            4.87%                 1,722
                                                                                                                                  21,643
Source: OIG Analysis.




             4
               Four years of historical data for the dates between program establishment in 2005 and modification in 2009 showed
             the Postal Service only certified 1,251 of the 2,434 units (51 percent) identified nationally as requiring certification.
             5
               The other 21 districts were reviewed in the six OIG prior district reports on city delivery office efficiency and the
             National Assessment of City Delivery Efficiency 2011 – Office Performance report. We only included 47 districts for
             the monetary impact calculations for FYs 2009 and 2010.




                                                                         2
Follow-Up on City Delivery                                                                         DR-AR-11-007
 Standard Operating Procedures


   The Postal Service is not on schedule to complete certification for the planned
    number of units for FY 2011 under the revised certification process.6 As of August 1,
    2011, the Postal Service had only certified an average of about 39 percent7 of the
    planned units scheduled in FY 2011. For example, one area had only certified 21
    percent of its units (see Table 2).


                 Table 2. FY 2011 AMSOP Certifications 8


                     Planned Sites For            Total Sites          Percent of Sites
    Area               Certification9              Certified              Certified
Capital Metro               234                       98                   41.88%
Eastern                     305                      214                   70.16%
Great Lakes                 252                       64                   25.40%
Northeast                   431                       91                   21.11%
Pacific                     269                       87                   32.34%
Southwest                   278                      160                   57.55%
Western                     255                       68                   26.67%
Total                     2,024                     782                    38.64%
Source: Delivery and AMSOP Certification Tracking as of August 2011.

Several factors contributed to the above condition.

   The AMSOP certification criteria had some shortcomings. The original criteria
    (implemented in 2005) did not ensure that units maintained performance levels after
    certification. Additionally, the modified criteria (implemented in 2008 and 2010)
    eliminated the 100 percent or less pass/fail percent to standard test question making
    certification less restrictive, while still allowing units to maintain certification without
    maintaining performance. Although, we agree the 100 percent to standard criteria in
    the previous process may have been too restrictive, an office performance percent
    to standard, such as the national average at 103.67, is a reasonable benchmark.

   Management did not effectively monitor units previously certified to ensure
    standards were maintained after certification. The certification process does not
    have a mechanism for de-certification and, although the process requires units to be
    re-evaluated after 3 years, such a time interval could allow some units to operate
    inefficiently for the entire period.



6
  In FY 2011, the EAS Level for units required to be certified was lowered to include EAS Level 21 units.
7
  Average of both FSS and non-FSS sites taken from the Delivery and Customer Service Certification (DCSC) web
application.
8
  Data through July 2011.
9
  The Postal Service FY 2011 plan includes one-third of non-FSS sites that are EAS Level 21 and above and all FSS
sites.


                                                        3
Follow-Up on City Delivery                                                                            DR-AR-11-007
 Standard Operating Procedures


      Management did not provide sufficient resources to ensure that all units were
       evaluated for certification. According to management, the lack of resources
       contributed to the inability to certify all units under the initial certification process and
       explains why the schedule has fallen behind.

These inefficiencies resulted in expending unnecessary workhours which cost
approximately $88 million over the 2-year period (see Appendix B for details).

IOPs and Workhours to Workload

IOPs did not always meet the needs of the delivery unit and procedures to match
workhours to workload were not consistently followed. The IOP, required in the SOP, is
a contract for mail arrival from the plant and identifies the type of mail agreed for each
individual trip from the processing plant to stabilize mail flow. Also, the SOP requires
units to ensure that workhours and workload are in alignment to operate efficiently and
improve mail delivery.

Our review disclosed the following:

      One hundred of the 151 units (66 percent) reviewed had problems with mail arrival
       time and/or mail volume and mix. This situation existed because management did
       not periodically coordinate with plant operations to ensure there were current and
       accurate IOPs. When mail does not arrive at the pre-established time and in the
       manner prescribed, carrier office operations are negatively impacted.

      Supervisors in 52 of 151 units (34 percent) did not use workload status reports to set
       expectations for morning office operations. Supervisors also did not review previous
       day’s performance with carriers using the Route Carrier Daily Performance report in
       87 of 151 units (58 percent).

Management addressed these issues in our Management Advisory Report, National
Assessment of City Delivery Efficiency 2011 – Office Performance. 10 Management
agreed with the recommendations and implemented corrective actions. They also
agreed to coordinate with Network Operations to update IOPs and improve workhour
and workload management with a series of foundations skills training for delivery units.
Therefore, we are making no new recommendations regarding these issues.

Other Matters – Assets at Risk

Physical access control and safeguarding of assets required additional management
attention. Specifically, at three11 of the units visited, stamp stock inventory and/or cash
were not properly safeguarded. Further, at one of the three locations, the rear entry
access door to the facility was not locked. As illustrated in the following photographs,
the OIG was able to open and enter the facility through the rear entry door.

10
     Report Number DR-MA-11-002, dated July 19, 2011.
11
     We judgmentally selected three sites to evaluate physical security and safeguarding of assets.


                                                            4
Follow-Up on City Delivery                                                                         DR-AR-11-007
 Standard Operating Procedures


Additionally, safes were not properly locked at all three locations.12 Two of the safes
contained stamp stock inventory valued at $88,644.56, 13 while the other safe contained
a small amount of cash.14 Physical access controls reduce security risks, while
safeguarding controls reduce the potential for loss or misappropriation of assets.15 We
brought these control issues to the attention of station managers and supervisors who
took immediate action to correct the situation. As a result, we are making no
recommendations on these issues.

Photo 1: Rear entry access door to unit             Photo 2: Stamp stock safe contents




Source: OIG

Recommendations

We recommend the vice president, Delivery and Post Office Operations:

1. Re-evaluate the certification criteria and ensure the criteria require units to meet, at
   least, the national average percent to standard measure for office operations.

2. Re-establish the schedule to certify units based on available resources and
   complete planned unit certifications.

3. Establish an annual process to de-certify units that do not maintain performance
   standards after certification.




12
   Safes are required to be locked except when authorized personnel are retrieving safe contents for use.
13
   Combined stamp stock inventory was obtained from unit supervisor’s phone interview.
14
   Cash was less than $100.
15
   Assets or Accountable Items at Risk – assets or accountable items (for example, cash, stamps, and money orders)
that are at risk of loss because of inadequate internal controls.




                                                        5
Follow-Up on City Delivery                                                    DR-AR-11-007
 Standard Operating Procedures


Management’s Comments

Management agreed with the finding, monetary impact, and, in principle, with the
recommendations in the audit. Management stated the AMSOP certification process
includes a requirement for units to meet 100 percent to standard, not the lesser national
average of around 103 percent. Management also stated that it determined that not
meeting the 100 percent to standard alone does not fail a unit and this was too
restrictive since a unit could be performing exceptionally in all other aspects while
slightly above 100 percent to standard.

Nevertheless, management indicated they plan to re-evaluate the criteria for AMSOP
certification based on an FSS environment. Management also indicated that scheduling
units for certification is an issue impacted by qualified staffing in the current Postal
Service environment; however, they plan to re-evaluate scheduling units for certification
under the AMSOP re-evaluation process. Regarding the unit de-certification issue,
management offered an alternative solution of investigating whether performance can
be monitored virtually and the possibility of certifying units every 2 years instead of
every 3 years. Management plans to take these actions by December 31, 2012. See
Appendix D for management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations in the
report and management’s planned actions should correct issues identified in this report.
We agree that 100 percent to standard is too restrictive and, instead, used the slightly
higher national average of around 103 percent. Our results, however, showed that some
certified units had a percent to standard significantly higher than the national average
and these units should be reevaluated.

The OIG considers recommendations 1 and 3 significant, therefore, requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                            6
Follow-Up on City Delivery                                                                                  DR-AR-11-007
 Standard Operating Procedures


                                    Appendix A: Additional Information

Background

The Delivery SOP consists of procedures to manage city delivery (Function 2b), rural
delivery (Function 2a), and retail operations (Function 4). This follow-up audit is limited
to city delivery. The Delivery SOP requires that Postal Service officials implement the
program and establish a review process to validate that the programs are understood
and operating effectively.

To ensure efficient use of resources, the vice president, Delivery and Retail, issued a
letter on September 30, 2005, stating that all delivery and retail units will officially
implement the SOP to establish standard practices for managing all delivery and retail
functions. In November 2005, Postal Service senior management requested assistance
from the Postal Service OIG to audit implementation of the SOP and determine how the
area is monitoring the units on the ‘vital few’ list. In response to the request, the OIG
began its nationwide review of the Postal Service’s implementation of the SOP in
January 2006. The OIG subsequently issued 10 reports in FYs 2006 and 2007. In
response to the audits, the Postal Service developed and implemented a program to
certify specific units 16 as efficiently operating under the AMSOP guidelines.

As part of the SOP implementation, the Postal Service established a delivery unit
certification process. This process, established in 2005, was designed to ensure that
units operate efficiently and requires units to maintain certain performance standards
(such as a DPS percentage of 85 or greater) and a percent to standard measure of 100
percent or less for 4 consecutive weeks to be considered for certification. The
certification process could not proceed further unless units met the performance
standards. Once the performance standards were met, the actual certification review
was initiated requiring units to achieve an overall score of 95 as well as passing eight
key pass/fail questions to be certified.

The Postal Service has modified the certification process twice since the initial
establishment, once in FY 2008 and again in FY 2010. The change in FY 2008 modified
the pass/fail criteria in lieu of an overall score of 95. Although the performance
standards were still required, units could become certified without achieving or
maintaining a performance standard (for example, a DPS percentage could be less than
85 or a percent to standard could be less than 100 percent). The Postal Service
modified the process again on September 29, 2010, with a retroactive date of October
1, 2009, to expand the number of units requiring certification to include FSS and EAS
21 and above sites not previously required.

The Postal Service currently has 3,23617 units that require certification. Units are
certified for 3 years from the date of certification. There is no process to de-certify a unit
that fails to maintain AMSOP certification standards.

16
     Units that were EAS Level 22 and above including all their subordinate facilities and all FSS sites.
17
     DCSC certification data through March 2011.


                                                              7
Follow-Up on City Delivery                                                       DR-AR-11-007
 Standard Operating Procedures



Objectives, Scope, and Methodology

Our objectives were to follow-up on city delivery issues found in previous delivery SOP
reviews and provide a progress report on FY 2011 conditions. Specifically, we
evaluated adherence to City Delivery AMSOP delivery units’ certification, the status of
IOPs, and the procedures over workhour to workload management. This audit is a
progress report following up on conditions as of FY 2011.

To accomplish our objectives, we:

   Reviewed documentation and applicable policies and procedures guiding city
    delivery, such as M-39, Management of City Delivery; and M-41, City Letter Carrier
    Duties and Responsibilities.

   Obtained and reviewed delivery unit data from the Electronic Data Warehouse
    (EDW), eFlash and Delivery Operating Information System (DOIS) to analyze
    AMSOP operations for selected delivery units.

   Conducted interviews at selected area/districts to obtain information on AMSOP
    certification status, carrier operations, unit operations, processes, and procedures.

   Conducted on-site observations of office procedures for city carriers at 18 selected
    delivery units (see Appendix C).

   Identified the certification dates and status of all delivery units that were scheduled
    or achieved AMSOP certification.

   Identified percent to standard measure for delivery units in relation to their AMSOP
    certification dates and status.

   Determined causes and subsequent effects for not passing or completing AMSOP II
    certification.

   Reviewed IOPs at select delivery units to ensure they met requirements of the
    delivery unit regarding dispatch times, mail volume, and mail mix.

   Examined any other material deemed necessary to accomplish our audit objectives.

   Discussed potential monetary impacts as the result of our findings with OIG experts.

   Discussed our findings with appropriate officials and included their comments, where
    appropriate.

We conducted this performance audit from March through September 2011 in
accordance with generally accepted government auditing standards and included such



                                              8
Follow-Up on City Delivery                                                                           DR-AR-11-007
 Standard Operating Procedures


tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management on August 25, 2011, and included their
comments where appropriate.

To conduct this review, we relied on computer-processed data maintained by Postal
Service operational systems (DCSC, DOIS, and EDW). We did not test the validity18 of
controls over these systems; however, we verified the accuracy of the data by
confirming our analysis and results with Postal Service managers and other data
sources.




18
     Validation of the consistency, accuracy, and completeness of data used by the Postal Service.


                                                            9
     Follow-Up on City Delivery                                                            DR-AR-11-007
      Standard Operating Procedures


     Prior Audit Coverage

     The OIG identified two reviews related to our objectives that were issued within the past
     5 years.

                                        Final
                        Report         Report      Monetary
  Report Title          Number          Date        Impact                Report Results
Delivery and Retail   DR-MA-07-003    02/22/2007           $0     Opportunities existed to improve
Standard                                                          implementation of the Delivery and
Operating                                                         Retail SOP within the Postal Service.
Procedures –                                                      Although all nine Postal Service
National Capping                                                  areas implemented the City Delivery
Report                                                            Operations SOP, we identified areas
                                                                  for improvement in AMSOP, IOPs,
                                                                  volume recording, DPS, and
                                                                  matching workhours to workload.
                                                                  Area and district officials agreed with
                                                                  our findings and recommendations.
National              DR-MA-11-002    07/19/2011   $88,192,128   Opportunities existed for the Postal
Assessment of City                                               Service to increase operating
Delivery Efficiency                                              efficiency and reduce 2,002,690 city
2011 – Office                                                    delivery workhours in the 21 districts
Performance                                                      operating above the national average
                                                                 percent to standard measure of
                                                                 104.37. For the period January 1,
                                                                 2010, through December 31, 2010,
                                                                 we found that 21 districts could have
                                                                 saved between 4 and 14 minutes per
                                                                 day on each carrier route if they
                                                                 operated at the national average
                                                                 percent to standard level.
                                                                 Management agreed with our
                                                                 findings and recommendations but
                                                                 disagreed with the amount of the
                                                                 monetary impact.




                                                   10
           Follow-Up on City Delivery                                                                            DR-AR-11-007
            Standard Operating Procedures


                                                 Appendix B: Monetary Impacts


                         Finding                          Impact Category                              Amount
                  Operating Efficiency            Calculation of Questioned Costs19                   $88,128,99320

           We estimated monetary impact of $88,128,993 in questioned costs.21 This amount is a
           result of excess workhours based on 601 units in FY 2009 and 655 units in FY 2010
           operating above the national average22 percent to standard measure (see Table 3).

                Table 3. Units with Excess Workhours Based on Percent to Standard Measure
                                         Above the National Average


                                                        FY 2009 Costs                  FY 2010 Costs
                                 Number of        Units Not      Inefficient     Units not      Inefficient      Total Cost for
                                 Units            Meeting or     Workhour        Meeting or     Workhour         FYs 2009 and
                                 Requiring        Maintaining    Cost            Maintaining    Cost             2010
                                 Certification    National                       National
                                 for FYs 2009     Percent to                     Percent to
                                 and 2010         Standard                       Standard
                                                  Performance                    Performance
    Area            District                      Level                          Level
Capital Metro    Greater South
                                      15                5            $246,603           6            $300,753         $547,357
                 Carolina
                 Greensboro           46               23          $1,293,885          19            $911,183       $2,205,068
                 Mid-Carolinas        17               1              $10,592          4              $82,424          $93,016
Capital Metro
                                      78               29          $1,551,080          29          $1,294,360       $2,845,441
Total

Eastern          Appalachian          11                4            $117,676           1             $67,443         $185,119
                 Central
                                      15                9            $219,473           9            $339,407         $558,880
                 Pennsylvania
                 Cincinnati           18               10            $695,374          10            $915,924       $1,611,298
                 Columbus             41               15            $460,614          41          $2,814,882       $3,275,496
                 Kentuckiana          20               11            $359,123          9             $190,088        $549,211
                 Northern Ohio        39               10            $519,980          15            $661,027       $1,181,007




           19
              A questioned cost is categorized as unnecessary, unreasonable, unsupported or an alleged violation of law,
           regulation or contract.
           20
              Does not include units reported in the National Assessment of City Delivery Efficiency 2011 – Office Performance.
           21
              The 47 districts and units were not included in prior OIG reports on city delivery office efficiency and National
           Assessment of City Delivery Efficiency 2011 – Office Performance.
           22
              The OIG used the national average percent to standard of 103.67 for FY 2009 versus the certification standard of
           100 percent. This was a more conservative approach, and we used it in our previous audits.


                                                                    11
              Follow-Up on City Delivery                                                                      DR-AR-11-007
               Standard Operating Procedures


                Table 3. Units with Excess Workhours Based on Percent to Standard Measure
                                    Above the National Average (continued)

                                     Number of       Units Not      Inefficient   Units not     Inefficient   Total Cost for
                                     Units           Meeting or     Workhour      Meeting or    Workhour      FYs 2009 and
                                     Requiring       Maintaining    Cost          Maintaining   Cost          2010
                                     Certification   National                     National
                                     for FYs 2009    Percent to                   Percent to
                                     and 2010        Standard                     Standard
                                                     Performance                  Performance
Area              District                           Level                        Level
                                                           FY 2009 Costs               FY 2010 Costs
Eastern           Philadelphia
                                          65              16         $1,064,724        10          $714,650     $1,779,374
(continued)       Metro
                  South Jersey            45              29         $1,700,832        9           $280,439     $1,981,271
                  Western New
                                          42               9           $754,272        8           $265,961     $1,020,233
                  York
                  Western
                                          28               5           $136,501        3            $16,186       $152,687
                  Pennsylvania
Eastern Total                            324             118         $6,028,570       115        $6,266,006    $12,294,576

 Great Lakes      Central Illinois        48              22           $710,224        22        $1,332,029     $2,042,253
                  Gateway                 17              10           $831,024        7           $633,595     $1,464,619
                  Greater
                                          32              20         $1,238,790        13          $497,868     $1,736,658
                  Indiana
                  Greater
                                          16               7           $594,770        9           $667,504     $1,262,274
                  Michigan
                  Lakeland                14               6         $1,196,830        7           $800,668     $1,997,498
                  Northern
                                          75              39         $2,262,239        74       $10,553,975    $12,816,215
                  Illinois
Great Lakes
                                         202             104         $6,833,877       132       $14,485,640    $21,319,517
Total

  Northeast       Albany                  20               1            $31,718        7           $414,962       $446,681
                  Northern New
                                           8               4           $134,211        4           $336,934       $471,145
                  England
                  Northern New
                                          87              36         $2,049,980        30          $969,073     $3,019,053
                  Jersey
                  Southeast
                                          66              22           $671,694        66        $4,229,012     $4,900,706
                  New England
                  Westchester             24               8           $506,134        4           $300,568       $806,702
Northeast
                                         205              71         $3,393,737       111        $6,250,550     $9,644,287
Total

Pacific           Honolulu                 9               1            $27,192        2             $2,115        $29,307
Pacific Total                              9               1            $27,192        2             $2,115        $29,307

  Southeast       Alabama                 14              7            $313,532        7           $509,178      $822,710
                  Mississippi             10              4             $37,040        2            $27,418        $64,458
                  North Florida           27              10           $604,293        12          $895,180     $1,499,473
                  South Florida           72              33         $3,458,625        25        $1,489,130     $4,947,755
                  South
                                          15               6           $210,758        15        $1,157,005     $1,367,764
                  Georgia
                  Suncoast                72              35         $1,610,172        31        $1,012,872     $2,623,044




                                                                      12
                  Follow-Up on City Delivery                                                                    DR-AR-11-007
                   Standard Operating Procedures


                    Table 3. Units with Excess Workhours Based on Percent to Standard Measure
                                        Above the National Average (continued)
.
                                       Number of       Units Not      Inefficient   Units not     Inefficient   Total Cost for
                                       Units           Meeting or     Workhour      Meeting or    Workhour      FYs 2009 and
                                       Requiring       Maintaining    Cost          Maintaining   Cost          2010
                                       Certification   National                     National
                                       for FYs 2009    Percent to                   Percent to
                                       and 2010        Standard                     Standard
                                                       Performance                  Performance
    Area              District                         Level                        Level
                                                             FY 2009 Costs               FY 2010 Costs
    Southeast
                      Tennessee             25               8           $394,262        5           $371,551       $ 765,813
    (continued)
    Southeast
                                           235             103         $6,628,682        97        $5,462,333    $12,091,015
    Total

     Southwest        Arkansas               9              1              $1,173        3            $17,980         $19,153
                      Dallas                33              21         $1,150,101        10          $658,380     $ 1,808,482
                      Fort Worth            15              6            $101,989        6           $248,483       $ 350,472
                      Houston               42              34         $3,672,166        22        $3,397,294     $7,069,460
                      Oklahoma              10              2              $7,677        1             $1,406         $ 9,083
                      Rio Grande            33              7            $406,615        9           $339,130       $745,745
    Southwest
                                           142              71         $5,339,720        51        $4,662,673    $10,002,393
    Total

      Western         Arizona               51              19         $1,271,311        28        $2,304,154     $3,575,465
                      Big Sky                7              2             $74,597        7           $649,470      $724,068
                      Central Plains        15              7            $489,200        8           $294,095      $783,295
                      Dakotas                7              7            $553,339        7           $320,854      $874,193
                      Hawkeye               11              5            $173,333        7           $262,354      $435,688
                      Nevada-
                                            18              11         $2,453,534        10        $1,404,164     $3,857,699
                      Sierra
                      Northland             30              20         $2,469,802        20        $2,549,681     $5,019,483
                      Portland              20              14         $1,256,144        15          $908,136     $2,164,280
                      Salt Lake City        22              19         $1,653,019        16          $815,270     $2,468,289
    Western
                                           181             104        $10,394,279       118        $9,508,179    $19,902,458
    Total
    National
                                           1,376           601        $40,197,137       655       $47,931,856    $ 88,128,993
    Total Cost
    Total Units                                            601                          655                             1,256
Source: OIG




                                                                        13
Follow-Up on City Delivery                                                      DR-AR-11-007
 Standard Operating Procedures


                           Appendix C: Locations Visited by OIG




                    Area             District               Location
                  Eastern           Central            Hazleton Post Office
                                  Pennsylvania
                                    Central            Lebanon Post Office
                                  Pennsylvania
                                    Central             Harrisburg-Lower
                                  Pennsylvania            Paxton Branch
                                   Columbus             Marion Post Office
                                   Columbus           Westerville Post Office
                                   Columbus           Columbus-East Carrier
                                                               Station
                  Western         Nevada-Sierra      Las Vegas-King Station
                                  Nevada-Sierra       Las Vegas-Crossroads
                                                               Station
                                  Nevada-Sierra        Las Vegas-Emerald
                                                               Station
                                    Northland               Minneapolis-
                                                       Robbinsdale Branch
                                    Northland        Minneapolis-West Edina
                                                          Carrier Annex
                                    Northland           Minneapolis-Coon
                                                          Rapids Branch
                 Southwest         Rio Grande           Killeen Post Office
                                   Rio Grande         San Antonio-University
                                                            Park Station
                                   Rio Grande         San Antonio-Northeast
                                                          Carrier Annex
                                    Suncoast         Saint Petersburg Central
                                                               Station
                                    Suncoast         Bradenton-57th Avenue
                                                              Branch
                                    Suncoast         Titusville-Carrier Annex




                                                14
Follow-Up on City Delivery                                           DR-AR-11-007
 Standard Operating Procedures


                                 Appendix D: Management’s Comments




                                           15
Follow-Up on City Delivery            DR-AR-11-007
 Standard Operating Procedures




                                 16
Follow-Up on City Delivery            DR-AR-11-007
 Standard Operating Procedures




                                 17
